March 29. 2002

KEITH STRANGE
VICE PRESIDENT. PURCHASING AND MATERIALS

SUBJECT:      Audit Report - Trailer Lease Justification
              (Report Number TD-AR-02-002)

This report presents the results of our self-initiated audit of the Postal Service trailer
fleet (Project Number 00PA032TR002). This report is one in a series of reports and
focuses on the Postal Service's decision to lease 4,475 trailers rather than purchase
them. Our objective was to evaluate whether the decision to lease trailers minimized
cost.

The audit revealed the Postal Service could save $85 million over the next 12 years by
purchasing rather than leasing trailers, and that management did not comply with Postal
Service investment policy, including the development of a Decision Analysis Report
approved by the Board of Governors. We recommended management immediately
prepare a Decision Analysis Report and submit it to the Board of Governors for
approval.

Management disagreed with our findings and recommendations. They stated the
National Trailer Lease was not a lease, but a service contract, and as a result, did not
require a Decision Analysis Report or Board of Governors' approval. They also stated
our $85 million savings, forecast over the 12 year project life, was incorrect.
Management's comments, and our evaluation of their comments are included in our
report. We consider management's disagreement with our findings and
recommendations unresolved, and plan to pursue the issues through the formal audit
resolution process. The Office of Inspector General (OIG) considers recommendations
1 and 4 significant and, therefore, requires OIG concurrence before closure.
Consequently, the OIG requests written confirmation when corrective actions are
completed. These recommendations should not be closed in the follow-up tracking
system until the OIG provides written confirmation that the recommendations can be
closed.
We appreciate the cooperation and courtesies provided by you and your staff during the
review. If you have any questions or need additional information, please contact
Joseph R. Oliva, director. Transportation and Delivery, at (703) 248-2100, or me at
(703) 248-2300.



Ronald K. Stith
Assistant Inspector General
 for Core Operations

Attachment

cc: Richard J. Strasser, Jr.
    John A. Rapp
    Paul E. Vogel
    Anthony M. Pajunas
    J. Dwight Young
    Susan M. Duchek
Trailer Lease Justification                                          TD-AR-02-002



                                TABLE OF CONTENTS
Executive Summary                                                             i

Parti

Introduction                                                                 1

     Background                                                              1
     Objective, Scope, and Methodology                                       1

 .   Prior Audit Coverage                                                    2

Part II

Audit Results                                                                3

     Trailer Lease Not Cost Effective                                        3
     Recommendations                                                         6
     Management's Comments                                                   6
     Evaluation of Management's Comments                                     6
     Decision Analysis Report Not Used                                       7
     Recommendation                                                          8
     Management's Comments                                                   8
     Evaluation of Management's Comments                                     8

     Other Matters Identified                                               14

Appendix A. Audit Locations                                                 15

Appendix B. Statistical Sampling and Projections for Trailer Lease          16
            Versus Purchase Review

Appendix C. 12-Year Economic Analysis of Purchased Versus Leased            25
            Trailers

Appendix D. Management's Subsequent Analysis                                28

Appendix E. Management's Comments                                           29




                                   Restricted Information
Trailer Lease Justification                                                        TD-AR-02-002



                                EXECUTIVE SUMMARY

 Introduction                 This report presents our assessment of the Postal Service's
                              decision to enter into a nationwide contract to lease
                              common fleet trailers. This audit was self-initiated. The
                              Postal Service uses a combination of both owned and
                              leased trailers to transport mail. We initiated our audit to
                              evaluate if the Postal Service's decision to enter into a
                              nationwide lease contract was more cost effective than
                              buying the trailers.


 Results in Brief             Our audit determined that Postal Service officials made a
                              decision to lease common fleet trailers based upon a
                              business justification process that incorrectly reported that it
                              was more advantageous to lease rather than purchase
                              trailers. That decision will cost the Postal Service an
                              additional $85 million over a 12-year period. Our audit also
                              revealed the Postal Service did not use a Decision Analysis
                              Report to determine if the nationwide lease was cost
                              effective. The initial 6-year lease totaling $101 million is
                              over the $10 million threshold for Board of Governors
                              approval, as required in the Handbook F-66, General
                              Investment Policies and Procedures.

  Summary of                  We recommended that management, purchase rather than
  Recommendations             continue the nationwide lease of common fleet trailers by
                              preparing a Decision Analysis Report for submission to the
                              Board of Governors. We also recommended that
                              management, establish controls to ensure the use of a
                              Decision Analysis Report for leases exceeding $10 million
                              per year.

  Summary of                  Management disagreed with our findings and
  Management's                recommendations. They stated the National Trailer Lease
  Comments                    was a service contract, not a lease, and as a result, did not
                              require a Decision Analysis Report or Board of Governors'
                              approval. They also stated our $85 million savings, forecast
                              over the 12 year project life, was incorrect. Management's
                              comments, in their entirety, are included in Appendix E of
                              this report.
Trailer Lease Justification                                                     TD-AR-02-002




 Overall Evaluation of        Management's comments were unresponsive to our
 Management's                 recommendations. Consequently we view disagreement
 Comments                     over our findings and recommendations unresolved and
                              plan to pursue the issues through the formal audit resolution
                              process.

                              Regarding the requirement for a Decision Analysis Report,
                              Handbook F-66, General Investment Policies and
                              Procedures, dated April 1999, requires both "leases" and
                              "expense investments" to be supported by a Decision
                              Analysis Report. The National Trailer Lease is both a lease
                              and an expense investment. Management's position that
                              the trailer lease is not a lease, but a service contract, is
                              inconsistent with generally accepted accounting principles.
                              Specifically, Statement of Financial Accounting Standards
                              Number 13, Accounting for Leases, provides agreements
                              transferring the right to use equipment, meet the definition
                              of a lease, and emphasizes such contracts are leases even
                              though substantial services by the contractor may be called
                              for in connection with equipment maintenance. Further,
                              Handbook F-66D, Other Investment Policies and
                              Procedures provides that major operating expense projects
                              include supplies, services, and maintenance—and that all
                              major operating expense projects "must" be supported by a
                              Decision Analysis Report. Consequently, even if the trailer
                              lease was a contract for services—a position with which we
                              do not concur—it would still require a Decision Analysis
                               Report.

                              Regarding the requirement for Board of Governors'
                              approval, Handbook F-66 states that Board of Governors
                              approval is required when the discounted lease cost,
                              including all renewal options, is $10 million. It further
                              requires Board of Governors notification whenever
                              undiscounted costs exceed $10 million. We calculated total
                              discounted costs as $171 million, more than 17 times the
                              Board of Governors' threshold, and total undiscounted costs
                              as $250 million, or more than 25 times the Board of
                              Governors' threshold.

                              Management did not agree with our estimated $85 million
                              savings because their various analyses were not prepared
                              in accordance with Postal Service investment policy. During
                              our audit we examined three lease versus buy analyses
Trailer Lease Justification                                                     TD-AR-02-002



                              prepared by management. The analyses omitted inflation
                              from relevant calculations, used assumptions substantially
                              more optimistic than specified by Postal Service policy, and
                              inconsistently applied cost factors to owned trailers while
                              omitting those factors from the cost of leasing. Our
                              concerns with all analyses were similar—omissions, or
                              inconsistent assumptions regarding inflation, trailer damage,
                              staffing, and infrastructure needs—manipulate conclusions.
Trailer Lease Justification                                                       TD-AR-02-002



                                     INTRODUCTION

 Background                   The Postal Service transports mail by trailer as one of the
                              most cost-effective ways to move large volumes of mail and
                              related equipment. The Postal Service uses almost
                              17,000 trailers of which 12,000 are leased. To replace
                              expiring contracts for a large number of leased common
                              fleet trailer contracts, and to lower the daily lease rate, the
                              Postal Service entered into a 6-year nationwide lease with
                              Transportation International Pool for 4,475 trailers and
                              31 converter gears for $101 million. The contract also
                              includes a renewal option for an additional 6 years. The
                              decision process included a memorandum and
                              recommendation for award approved by the vice president.
                              Purchasing and Materials.


  Objective, Scope, and       The objective of our audit was to evaluate if the Postal
  Methodology                 Service's decision to enter into a nationwide lease contract
                              for trailers was more cost effective than owning the trailers.

                              To accomplish our objective, we conducted interviews and
                              obtained supporting documentation for leasing and
                              purchasing common fleet trailers at Postal Service
                              Headquarters. We also reviewed maintenance work-orders
                              and other related documentation from a total of 55 vehicle
                              maintenance facilities for 1,738 Postal Service owned
                              trailers. Geographic locations of sites are shown in
                              Appendix A. In addition, we reviewed Postal Service policy
                              and procedures and generally accepted accounting
                              principles related to leases. Finally, we interviewed Postal
                              Service and contractor personnel, conducted sampling of
                              Postal Service owned trailers to establish preventive
                              maintenance costs, inspected trailers, and performed
                              statistical analysis.

                              To conduct sampling, we statistically selected 55 vehicle
                              maintenance facilities. Our sample allowed us to
                              statistically project maintenance costs for Postal Service
                              owned trailers throughout the population of all facilities, and
                              to a total nationwide population of more than 4,016 trailers.
                              Details of our sampling methodology are contained in
                              Appendix B.
Trailer Lease Justification                                                       TD-AR-02-002




                              We used a cash flow analysis to forecast the cost of buying
                              versus leasing over a 12-year period. The methodology for
                              the cash flow analysis is contained in Appendix C.

                              We conducted our audit between January 2001 and
                              March 2002 in accordance with generally accepted
                              government auditing standards, and included such tests of
                              internal controls as were considered necessary under the
                              circumstances. We discussed our conclusions and
                              observations with appropriate management officials, and
                              included their comments, where appropriate.

 Prior Audit Coverage         We did not identify any prior audits or reviews related to the
                              objective of the audit.
Trailer Lease Justification                                                                            TD-AR-02-002



                                            AUDIT RESULTS

 Trailer Lease Not                 The Postal Service's decision to lease common fleet trailers
 Cost Effective                    was not the most cost effective method of acquiring the
                                   trailers. The decision to lease rather than purchase trailers.
                                   was based upon a business justification process and
                                   will cost the Postal Service an additional $85 million over a
                                   12-year period.

                                   Postal Service officials defined the business justification
                                   process as an analysis that is tike a Decision Analysis
                                   Report^ process but more abbreviated. The manager.
                                   National Mail Transportation, and the purchasing
                                   specialist/contracting officer, stated that the Purchasing
                                   Manual indicates a lease is for core day-to-day activities
                                   and does not require a Decision Analysis Report. Also, the
                                   purchasing specialist/contracting officer stated the Decision
                                   Analysis Report process takes a great deal of time. In
                                   addition, a program evaluation specialist in the Capital and
                                   Program Evaluation Office informed the contracting officer
                                   that the national trailer lease should be treated as a service
                                   contract, which does not require the preparation of a
                                   Decision Analysis Report. As a result of these statements
                                   by Postal Service managers, we reviewed relevant sections
                                   of the Purchasing Manual and Postal Service Handbook
                                   F-66, General Investment Policies and Procedures.
                                   However, we could not identify any provision that relieved
                                   the Postal Service managers from developing a Decision
                                   Analysis Report as specified by Handbook F-66.

                                   Based upon the results of the business justification, Postal
                                   Service officials initiated a memorandum and recommended
                                   the award of a nationwide trailer lease. The memorandum
                                   included an attachment comparing the cost of leasing to the
                                   cost of ownership of trailers over a 12-year period. We
                                   analyzed the calculations included in the attachment and
                                   identified inaccurate computations that resulted in leasing
                                   rather than purchasing the trailers as being more cost
                                   beneficial. We found Postal Service officials used an
                                   inflation rate of 22 percent for maintenance costs instead of
                                   the Postal Service established rates of 2.8 percent for labor



  The Decision Analysis Report is a document prepared by the requiring organization to recommend an investment
for approval. It must provide sufficient detail including back-up documentation to enable the approving officials to
make an informed decision regarding the use of Postal Service funds.
Trailer Lease Justification                                                                     TD-AR-02-002



                                 and 1.7 percent for material.^ As a result, the annual
                                 maintenance cost for purchasing a trailer was reported as
                                 $3,267 instead of $1,045, which overstated the cost by
                                 $2,222. In addition, we identified that the cost of non-
                                 preventive maintenance costs were excluded from the cost
                                 of leasing trailers while included as a cost to purchase
                                 trailers. The errors were not identified, and the Postal
                                 Service entered into a 6-year nationwide lease for
                                 4,475 common fleet trailers and 31 converter gears with
                                 Transportation International Pool for $101 million with an
                                 option to renew for an additional 6 years.

                                 We determined that historical maintenance costs, which
                                 were used as a cost of owning trailers in the business
                                 justification process, included both preventive maintenance
                                 costs, and the cost of damages and repairs. However,
                                 according to the contract, the contractor will only cover the
                                  preventive maintenance costs. The Postal Service is
                                 responsible for any accidents, damages, and repairs (non-
                                 preventive maintenance costs) that according to our 12-year
                                 cash flow analysis would total about $64 million.

                                 We used a statistical sample of fiscal year (FY) 2000
                                 maintenance work-orders to determine repair costs that
                                 would be classified as preventive or non-preventive, based
                                 upon Transport International Pools repair standards. (See
                                 Appendix B). Our 12-year cash flow analysis of the lease
                                 and purchase of the trailers is summarized in Table 1.




 Vice president Finance, controller, memorandum dated March 15, 2000, Subject: Decision Analysis Report
Factors/Cost of Borrowing Update provides escalation factors for Postal Service labor and other costs.
Trailer Lease Justification                                                                          TD-AR-02-002




                                                 ACQUISITION                        LEASE          PURCHASE
                                                    ITEM                          (MILLIONS)       (MILLIONS)

                                   TRAILER                                              $0              $99
                                   LEASE CONTRACT WITH PREVENTIVE
                                   MAINTENANCE                                         212                0
                                   PREVENTIVE MAINTENANCE                                0               33'
                                   NON-PREVENTIVE MAINTENANCE                           64               64
                                   SALVAGE VALUE                                         0               (5)
                                   TURN-IN RECONDITIONING                                **               0

                                   TOTAL                                              $276             $191

                                   GROSS SAVINGS                                                        $85
                                   CONTRACT TERMINATION                                                  (2.8)

                                   NET SAVINGS BY PURCHASE                                              $82.2

                                          TABLE 1 : COST TO LEASE VERSUS PURCHASE TRAILERS

                                    * COST IS BASED ON AVERAGE LABOR RATES FOR CURRENT CONTRACTS
                                   FOR MAINTENANCE AND REPAIR IN EFFECT AT VEHICLE MAINTENANCE
                                   FACILITIES.

                                   " THE LEASE REQUIRES THE POSTAL SERVICE MAKE THE NECESSARY
                                   REPAIRS TO BRING THE TRAILER BACK TO A CERTAIN STANDARD AT THE
                                   END OF THE LEASE. THIS WILL BE AN ADDITIONAL COST TO THE LEASE.


                                   In addition, we identified two Decision Analysis Reports^ to
                                   purchase trailers that demonstrated leasing is not
                                   economically justified given the length of time the Postal
                                   Service keeps trailers. We analyzed both Decision Analysis
                                   Reports and determined they both used the same
                                   methodology and were supported by historical records.
                                   However, the second Decision Analysis Report was not
                                   fonwarded to the Board of Governors, in June 2000,
                                   because it conflicted with the national lease proposal.** As a
                                   result, information that would have supported a decision to
                                   purchase trailers was not used or made available to the
                                   Board of Governors.

                                   The manager. Logistics, and the manager. National Mail
                                   Transportation Purchasing, stated that there needs to be a
                                   balance between leased and purchased trailers to allow
                                   flexibility for the time when trailers are not being used. They
                                   stated the Postal Service would have the flexibility to return
                                   excess leased trailers to the leasing company while

^ A Decision Analysis Report dated April 13, 1997. to purchase 2,000 trailers, and a Decision Analysis Report dated
April 21. 2000, to purchase 1,000 traiiers.
'' Manager, Delivery, memorandum dated June 7, 2000. subject: Decision Analysis Report: 1.000 Trailers and
2.400 Mixed Delivery and Collection Vehicles.
Trailer Lease Justification                                                        TD-AR-02-002



                              purchased trailers will just sit in the yard unused. We
                              contend that purchasing the 4,500 trailers will still leave over
                              7,000 leased trailers in the fleet that can be returned to the
                              leasing company.

                              The manager. National Mail Transportation Purchasing, also
                              stated that purchasing trailers will require additional
                              infrastructure to manage the fleet at Postal Service facilities.
                              We disagree. The Postal Service would not require
                              additional infrastructure to service trailers that it owns.
                              Trailer maintenance and repair could be outsourced at
                              approximately the same cost as service provided under the
                              lease agreement.

  Recommendations             We recommend the vice president, Purchasing and
                              Materials;

                              1. Prepare a Decision Analysis Report to purchase the
                                 common fleet trailers currently under the nationwide
                                 lease and submit it to the Board of Governors.

                              2. Upon approval to purchase trailers, initiate action to
                                 purchase trailers and terminate the national lease.

                              3. Obtain bids for nationwide maintenance and repair
                                 services for the common fleet trailers.


  Management's                Management disagreed with our findings and
  Comments                    recommendations.

  Evaluation of               The various issues and recommendations in this section,
  Management's                and in the next section of our report, are interrelated. In
  Comments                    order to avoid redundancy in evaluating management's
                              comments, we will defer discussion, and evaluate
                              management comments at the end of our report.
Trailer Lease Justification                                                      TD-AR-02-002




 Decision Analysis            A Decision Analysis Report was not used to determine the
 Report Not Used              most economical method for a major cost to the Postal
                              Service. Postal Service officials structured the lease for
                              common fleet trailers as a service contract and used a
                              memorandum and recommendation for award instead of a
                              Decision Analysis Report. As a result, the Board of
                              Governors was not provided the opportunity to assess and
                              approve the decision to either lease or purchase the trailers.

                              Postal Service officials used a service contract to lease
                              common fleet trailers over a 6-year period for $16.8 million
                              peryear totaling over $101 million. In addition, the contract
                              includes an option to renew for another 6 years. Statement
                              of Financial Accounting Standard Number 13 defines a
                              lease as an agreement conveying the right to use property,
                              plant, or equipment for a stated period of time. Agreements
                              that transfer the right to use equipment meet the definition
                              of a lease even though substantial services may be called
                              for in connection with the operations or maintenance of such
                              assets. An agreement that does not transfer the right to use
                              property plant or equipment is not a lease. Since the
                              National Trailer Lease agreement does transfer the right to
                              use the equipment it would be considered a lease.
                              According to Statement of Financial Accounting Standard
                              Number 13, agreements for services that involve the use of
                              equipment but do not convey the right to use the equipment
                              lo the recipient of such services would be accounted for as
                              a service agreement. Based on the definition provided in
                              the Financial Accounting Standards, the National Trailer
                               Lease is a lease and not a service contract. Therefore,
                               Postal Service officials did not follow generally accepted
                               accounting principles. Further, the "service contract"
                               should have been correctly characterized as a lease and a
                               Decision Analysis Report prepared.


                              Also, the delegations of approval authority in Section 2
                              of. General Investment Policies and Procedures.
                              Handbook F-66, April 1999, states the Board of Governors
                              must approve all lease/rental agreements over $10 million.

                              The manager National Mail Transportation Purchasing,
                              disagreed and said the lease was for the core day-to-day
                              activities. He further stated that the Purchasing Manual
                              gives them the authority to meet competitive and business
Trailer Lease Justification                                                      TD-AR-02-002



                              needs. Therefore, he concluded that a Decision Analysis
                              Report was not required. We reviewed the Purchasing
                              Manual but found no informafion that would supersede
                              Handbook F-66 or generally accepted accounting principles
                              requirements.

                              The acting manager of Capital and Program Evaluation,
                              stated that leases are always considered service contracts
                              because the successful vendor would provide services for
                              maintenance and repair along with the equipment.
                              However, in our judgment. Postal Service officials
                              inappropriately used a service component as a justification
                              to structure the lease as a service contract.

  Recommendation              We recommend the vice president. Purchasing and
                              Materials:

                              4. Develop management controls to ensure use of a
                                 Decision Analysis Report for leases exceeding
                                 $10 million peryear.

 Management's                 Management disagreed with our findings and
 Comments                     recommendations. They stated:

                                  The National Trailer Lease did not require a Decision
                                  Analysis Report because it was not a capital lease, but
                                  rather, a service contract.

                                  The National Trailer Lease did not require Board of
                                  Governors' approval.

                              •   Our estimated $85 million savings, forecast over the
                                  12 year project life, was incorrect.

  Evaluation of               Management's comments are not responsive to our
  Management's                recommendations. We view disagreement with our
  Comments                    recommendations 1 and 4 as unresolved and plan to pursue
                              the recommendations through the formal audit resolution
                              process.

                              In our draft report we recommended the vice president,
                              Purchasing and Materials, ensure leases meeting the
                              characteristics of a capital lease be accounted for as the
                              acquisifion of an asset and the incurrence of a liability. We
Trailer Lease Justification                                                      TD-AR-02-002



                              continue to believe that advice is prudent. However, since a
                              lease contract does not have to be a capital lease to require
                              a Decision Analysis Report, we eliminated the
                              recommendation pertaining to capital leases from our
                              report, revised the text accordingly, and deferred the capital
                              lease issue for later consideration.

 Decision Analysis            Regarding the requirement for a Decision Analysis Report,
 Report Requirements          Handbook F-66, General Investment Policies and
                              Procedures, dated April 1999, identifies both "lease
                              agreements" and "major operating expenses" as subject to
                              Decision Analysis Report requirements. The National
                              Trailer Lease is both a "lease" and a "major operating
                              expense." Consequently, a Decision Analysis Report
                              should have been prepared.

                              Management's position that the trailer lease is not a lease,
                              but a service contract, is inaccurate. Handbook F-66
                              stipulates that generally accepted accounting principles like
                              Financial Accounting Standards, as well as Postal Service
                              policy, control Postal Service investments. Statement of
                              Financial Accounting Standards Number 13, Accounting for
                              Leases, provides agreements transferring the right to use
                              equipment, meet the definition of a lease, and emphasizes
                              such contracts are leases even though substantial services
                              by the contractor may be called for in connecfion with
                              equipment maintenance. Handbook F-66, Chapter 6,
                              "Leasing Guidelines" requires leasing investment projects to
                              be properly presented in a Decision Analysis Report.

                              Handbook F-66, Paragraph 1-4, "Types of Investments,"
                              defines a "major operating expense" as a corporate initiative
                              resulting in the expenditure of operating funds in excess of
                              $7.5 over a project's life. The National Trailer Lease was a
                              major corporate initiative involving a switch from a
                              decentralized leasing program with multiple local contracts,
                              to a centralized leasing program, with only one national
                              contractor—and we projected expenditures exceeding
                              $250 million over the project's 12 year life. In addition.
                              Handbook F-66D, Other Investment Related Policies and
                              Procedures, provides that major operating expense projects
                              include supplies, services, and maintenance—and that all
                              major operating expense projects "must" be supported by a
                              Decision Analysis Report. Consequently, even if the
                              national trailer lease was a contract for services—a position
Trailer Lease Justification                                                     TD-AR-02-002




                              with which we do not concur—it would still require a
                              Decision Analysis Report.

 Board of Governors'          Regarding the requirement for Board of Governors
 Approval                     approval. Handbook F-66, paragraph 2-5, "Delegated
                              Authority for Expense Items," states that for purposes of
                              determining whether a lease requires Board of Governors'
                              approval, the cost of the lease is the present value of all
                              lease payments over the lease term, including "all" periods
                              covered by renewal options. The provision emphasizes that
                              leases normally contain renewal options; stipulates "total"
                              cost, including renewal options, "must" be considered when
                              determining approval authority; and specifies the discounted
                              project cost requirement for Board of Governors' approval is
                              $10 million.

                              We calculated the total discounted project cost, including
                              the 6-year renewal option required by Postal Service policy,
                              as $171 million—or more than 17 times the Board of
                              Governors' threshold.

                              Further, Handbook F-66D, Chapter 2, "Major Operating
                              Expense Investments," provides that whenever
                              undiscounted costs over a project's life exceed $10 million,
                              the Board of Governors must be notified. The chapter
                              specifies that when determining approval authority, all
                              undiscounted costs, including those for supplies, services,
                              and maintenance, "must be considered." We forecast
                              12-year project costs exceeding $250 million—or more than
                              25 times the Board of Governors' threshold.

  Savings                     Management did not agree with our projected $85 million
                              12 year savings because their various analyses were not
                              prepared in accordance with the requirements of Postal
                              Service investment policy.

                              As we pointed out in our draft report, we examined the lease
                              versus buy analysis management used to support their
                              lease decision and found;

                              •    It improperly used a 22 percent inflation rate to
                                  calculate routine maintenance on Postal Service owned
                                  trailers, when the inflation rate identified by Postal
                                  Service policy was 2.8 percent for labor and 1.7 percent



                                              10
Trailer Lease Justification                                                       TD-AR-02-002




                                  for materials. Consequently, the 12-year cost of
                                  owning trailers was overstated by almost $120 million.

                              •   Omitted inflation from the cost of leased trailer
                                  maintenance, and other leased trailer costs.

                              •   Inconsistently assumed purchased trailers would incur
                                  damage, while leased trailers would not.

                              In addition, management's economic analysis did not
                              consider the "actual useful life" of owned trailers beyond
                              their "depreciable life" for accounfing purposes. Trailers can
                              actually be used well over 12 years. For example, our
                              review of trailers in the New York Metro Area, dated
                              March 30, 2001, identified trailers up to 30 years old that
                              were still used for storage; and an internal Postal Service
                              memorandum we examined during this audit stated that
                              343 trailers identified for replacement by a 1997 Decision
                              Analysis Report, were sfill in service as of June 2000—even
                              though they were more than 17 years old.

                              The internal memorandum also put management on notice
                              that leasing was inconsistent with Decision Analysis Report
                              experience. Specifically, the memorandum identified trailer
                              Decision Analysis Reports prepared in April 1997 and in
                              June 2000, and forcefully warned that leasing was not
                              economically justified "given the length of time" the Postal
                              Service actually kept trailers. The memorandum also
                              questioned how management could reconcile their action to
                              lease with Decision Analysis Report conclusions.

                              We examined the Decision Analysis Reports referred to in
                              the Postal Service internal memorandum, and concluded
                              the reports used consistent methodology and were
                              supported by historical records. We subsequently shared
                              our concern with management about what we considered
                              errors in the "Memorandum and Recommendation"
                              supporting their lease decision. As a result of errors we
                              identified to management, and because the internal Postal
                              Service memorandum clearly questioned the validity of their
                              analysis, we are surprised management continues to cite
                              their "Memorandum and Recommendation" as a basis for
                              disagreeing with our findings.




                                               11
Trailer Lease Justification                                                      TD-AR-02-002




                              Management stated that during the period between the
                              issue of our draft report, and the issue of their formal
                              response, in an attempt to resolve differences, they
                              exchanged data with us on numerous occasions. We
                              appreciated that opportunity. One such exchange took
                              place on Tuesday, December 18, 2001. After that meeting,
                              management supplemented their "Memorandum and
                              Recommendation" by providing a second analysis they said
                              used assumptions and estimates from our draft report
                              (See Appendix D). We examined that document and found
                              various inconsistencies with our report;

                              Cost at Renewal - Our analysis applied an inflafion factor to
                              contract renewal in year six as specified by Postal Service
                              policy for calculations of this type. Management's analysis
                              did not consider inflafion, and assumed the Postal Service
                              would be able to achieve a 14 percent reduction at contract
                              renewal. Such an optimistic assumption is inconsistent with
                              Postal Service policy and the generally accepted accounting
                              principle of conservatism.

                              Trailer Damage - Management assumed damage to leased
                              trailers would be substantially less than damage to owned
                              trailers, and applied inflation to purchase trailer damage but
                              not to leased trailer damage. Because of omissions or
                              differing assumptions, management concluded damage to
                              owned trailers over 12 years would be $64 million, while
                              damage to leased trailers over 12 years would be only
                              $16 million—a difference of 75 percent Our analysis
                              assumed damage would be approximately the same
                              because trailers, whether, they are owned or leased, travel
                              over the same roads, go to the same facilities, and are
                              loaded or unloaded by the same people. Consequently,
                              their operational use is unaffected by the "financing"
                              decision whether to lease or buy.

                              Cost for Additional Staff and Infrastructure - Management
                              assumed that purchased trailers would cost $16 million
                              more for staff and infrastructure. Our analysis assumed the
                              requirement to operate, maintain, and store trailers was
                              independent of the "financing" decision to lease or buy, and
                              that cost would be the same whether it was outsourced or
                              imbedded in a leasing contract. Consequently we did not
                              identify a need for additional staff or infrastructure. We
Trailer Lease Justification                                                      TD-AR-02-002



                              noted Postal Service employees were already in place to
                              track trailers, process damage claims, and adjudicate trailer
                              damage—and we assumed existing employees could
                              perform the same functions regardless of trailer ownership.

                              After we examined management's second analysis, we
                              noted concerns similar to those we identified in the original
                              lease versus buy analysis. We again shared our concerns
                              with management; management again revised their
                              analysis; and in their formal response to our draft report,
                              presented a third analysis. However, because their third
                              analysis still did not comply with the requirements of Postal
                              Service investment policies and procedures, our concerns
                              with the third version were similar to our concerns with the
                              first two. Specifically, omissions, or unsupported
                              assumptions regarding cost escalation at renewal, damage,
                              staffing, and infrastructure can manipulate conclusions.
Trailer Lease Justification                                                        TD-AR-02-002




 Other Matters                In their official response to our draft audit report.
 Identified                   management included what they referred to as
                              "Attachment 1 - Memorandum and Recommendation."
                              Management represented the attachment as the actual
                              "Memorandum and Recommendation" signed by the
                              vice president. Purchasing and Materials, August 15, 2000,
                              which awarded the trailer lease contract. We noted the
                              signature block on "Attachment 1" was not executed, and
                              discovered "Attachment 1" had been significantly altered
                              from the original signed document. We are disturbed that
                              some officials might erroneously believe merely substituting
                              a word could change the legal or economic substance of a
                              major Postal Service acquisition—and allow circumvention
                              of internal controls designed to protect the resources and
                              best interests of the Postal Service. We are also disturbed
                              that a document submitted in a formal response to a draft
                              audit report, would be materially altered from the official
                              document it purported to represent.

                              The reason the alterations were important was because
                              they supported management's position that the trailer
                              acquisition was exempt from Decision Analysis Report
                              requirements. The specific alterations included deletion of
                              the phrase "National Trailer Lease," which was a prominent
                              part of the title on the official "Memorandum and
                              Recommendation" actually signed by the vice president. In
                              addition, references to "lease contract," "lease," or similar
                              terms, were deleted and replaced with terms like "service"
                              or "service contract," more than 60 times.

                              We discussed this matter with management and
                              management indicated the alterations were simply in error.
                              However, we find the thoroughness of substitution effort
                              troubling. Handbook F-66, paragraph 1-2, requires officials
                              who make or recommend investment decisions, to interpret
                              the intent of Postal Service investment policies, and to
                              ensure accountability, credibility, and the best interest of the
                              Postal Service are achieved. Consequently, we are
                              referring the matter for further consideration, and whatever
                              action may be warranted under the circumstances.
Trailer Leaae Justification                                                    TD-AR-02-002




                               APPENDIX A. AUDIT LOCATIONS
                  POSTAL SERVICE VEHICLE MAINTENANCE FACILITIES


FACILITY                      STATE                  FACILITY        STATE

Birmingham                    Alabama                Kansas City     Missouri
Sacramento                    California             Raleigh         North Carolina
San Bernardino                California             Omaha           Nebraska
San Diego                     California             New Brunswick   New Jersey
San Jose                      California             Paterson        New Jersey
Santa Ana                     California             Albany          New York
Stockton                      California             Brooklyn        New York
Denver                        Colorado               Buffalo         New York
Hartford                      Connecticut            Syracuse        New York
Washington                    District of Columbia   Cincinnati      Ohio
Ft. Lauderdale                Florida                Cleveland       Ohio
Jacksonville                  Florida                Portland        Oregon
Miami                         Florida                Lancaster       Pennsylvania
Mid-Florida                   Florida                Pittsburgh      Pennsylvania
Tampa                         Florida                Southeastern    Pennsylvania
West Palm Beach               Florida                Columbia        South Carolina
Atlanta                       Georgia                Memphis         Tennessee
Bedford Park                  Illinois               Nashville       Tennessee
Chicago                       Illinois               Dallas          Tennessee
Gary                          Indiana                San Antonio     Texas
South Bend                    Indiana                Dulles          Virginia
Lexington                     Kentucky               Merrifield      Virginia
New Orleans                   Louisiana              Norfolk         Virginia
Brockton                      Massachusetts          Richmond        Virginia
Baltimore                     Maryland               Seattle         Washington
Portland                      Maine                  Tacoma          Washington
Detroit                       Michigan
Grand Rapids                  Michigan
Royal Oak                     Michigan
Trailer Lease Justification                                                   TD-AR-02-002



                                    APPENDIX B

                 STATISTICAL SAMPLING AND PROJECTIONS
               FOR TRAILER LEASE VERSUS PURCHASE REVIEW


PURPOSE OF THE SAMPLING

One of the objectives of this audit was to assess the cost of trailer maintenance actions
that would not be covered by the lessor in a leasing agreement Such actions, for which
the cost would be borne by the Postal Service, would include repairs for damage that
was caused by Postal Service use of the equipment In support of this audit objective,
the audit team employed a stratified sample design that allowed statistical projection of
the dollar amount of non-preventive maintenance and repair of trailers. The resulting
projections are used as input to the cash flow analysis model documented in
Appendix C.

DEFINITION OF THE AUDIT UNIVERSE

We obtained maintenance cost data from the Postal Service vehicle maintenance
accounting system database. Vehicle Management Accounting System, based on the
listing for FY 2000. Trailers were grouped into three categories defined by the model
year for the trailers: (1) 1984/87, (2) 1991/92, and (3) 1998.

The universe for the 1984/87 model years consisted of 1,011 trailers in 69 Vehicle
Maintenance Facility locations and reflected a total book value of scheduled and
unscheduled maintenance and repairs of $1,435,619.

The universe for the 1991/92 model years consisted of 1,019 trailers in 74 Vehicle
Maintenance Facility locations with a total book maintenance and repair value of
$1,110,919.

The universe for the 1998 model year consisted of 1,986 trailers in 85 Vehicle
Maintenance Facility locations with a total book maintenance and repair value of
$1,474,342.

 SAMPLE DESIGN AND MODIFICATIONS

 This audit used a stratified sample design with a two-stage selection of trailers within
 each stratum. For the stratification, Vehicle Maintenance Facility sites were grouped
 based on the number of trailers and the grand total of scheduled and unscheduled
 maintenance and repairs at the Vehicle Maintenance Facility for FY 2000. The original
 stratification included only the 1984/87 model year trailers. When the newer trailers




                                            16
Trailer Lease Justification                                                                         TD-AR-02-002



were identified, additional strata were included for sites that had the new trailers but
none of the older ones.

For the 1984/1987 model year, a total of 32 Vehicle Maintenance Facility locations were
randomly selected for review. A sample size of 26 sites was calculated based on an
average of about 15 trailers per site (approximately 1,042 trailers at about 70 sites) and
a desired total of about 380 trailers in the sample, to provide a two-sided 95 percent
confidence interval with approximately 4 percent precision, based on auditor
expectations of approximately a 50 percent level of compliance on one or more
attributes.^ The original stratification of the 26 sites included the allocation of 20 sites to
one stratum and 6 to another, with 13 sites eliminated from the universe because they
had only one trailer each. The third stratum was later re-included, with an additional,
6 sites selected. The sample selection was random within each stratum, with 20 sites
from stratum I (Ni=33), 6 sites from stratum II (Nii=25), and 6 sites from stratum III
(N„,=13).

Table 1; Universe Count and First Stage Sample Size for 1984/87 Model Years

                                                                   Number of
                                                                   Vehicle           First-
                                                                   Maintenance       Stage
          Stratum              Description                         Facilities        Sample
          1            AMOUNTS $10,000                             33                20

          II           AMOUNT <$10,000 and more than 1             23                6
                       trailers

          III          AMOUNT <S10,000 and one trailer             13                6
  Total                                                            69                32


The stratification as shown ensured that the strata were mutually exclusive and
collectively exhaustive, thus covering the entire population of Vehicle Maintenance
Facilities having 1984/1987 model year trailers.

At the first stage. Vehicle Maintenance Facilities were selected randomly within each
stratum. At the second stage, trailers were selected from those at each Vehicle
Maintenance Facility. All trailers were selected if the number of trailers at a Vehicle
Maintenance Facility was less than or equal to 50. If there were more than 50 trailers,
50 trailers were randomly selected by the audit team using the Excel "randbetween"
function. The resulting 1984/1987 sample included a total of 476 trailers at 32 sites.

The universe of Vehicle Maintenance Facilities having trailers from the 1991/1992 and
1998 model years include locations not in the original stratification. For each of these

  Because we had no prior information regarding the mean and standard deviation, we were not able to calculate a
 sample size specifically designed for the variables. A 4 percent precision was used in an attribute-based size
 calculation because we expected to lose some precision when we worked with the variables data.
Trailer Lease Justification                                                                   TD-AR-02-002



two later model years, two additional strata were added to the original three strata of
locations pertinent to the first model year. The universe size and first-stage sample size
are indicated in Tables 2 and 3 for the 1991/92 and 1998 model years, respectively. At
the second stage, all trailers were selected if the number of trailers at a Vehicle
Maintenance Facility was less than or equal to 50. If there were more than 50 trailers,
50 trailers were randomly selected by the audit team using the Excel "randbetween"
function. The resulting 1991/92 sample included a total of 450 trailers at 40 sites; the
resulting 1998 sample included a total of 812 trailers at 44 sites.

Table 2: Universe Count and First Stage Sample Size for 1991/92 Model Years
                                                                       Number
                                                                          of
                                                                       Vehicle
                                                                       Mainten-     First -
                                                                         ance        Stage
           Stratum                      Description                    Facilities   Sample
               1       Locations with 1984/1987 trailers having           31           17
                       repairs > $10,000
               tl      Locations with 1984/1987 trailers having           14           4
                       amount < $10,000 and >one 1984/1987 trailer
              III      Locations with 1984/1987 trailers having            9           5
                       amount < $10,000 and only one 1984/1987
                       trailer
              IV       Locations with 1992 trailers having amount >        6           6
                       $10,000, no 1984/1987 trailers
              V        Locations with 1992 trailers having amount <        14          8
                       $10,000, no 1984/1987 trailers
 Total                                                                    74          40


Table 3: Universe Count and First Stage Sample Size for 1998 Model Year
                                                                       Number
                                                                          of
                                                                        Vehicle
                                                                       Mainten-      First-
                                                                         ance        Stage
           Stratum                    Ranqe Description                Facilities   Sample
               I        Locations with 1984/1987 trailers having          29           15
                        repairs > $10,000
               II       Locations with 1984/1987 trailers having           17          3
                        amount < $10,000 and >one 1984/1987 trailer
               III      Locations with 1984/1987 trailers having           11          6
                        amount < $10,000 and only one 1984/1987
                        trailer
               IV       Locations with 1998 trailers having amount >       11         11
                        $10,000, no 1984/1987 trailers
               V        Locations with 1998 trailers having amount <       17          9
                        $10,000. no 1984/1987 trailers
  Total                                                                    85         44
Trailer Lease Justification                                                                         TD-AR-02-002



STATISTICAL PROJECTIONS OF THE SAMPLE DATA

METHODOLOGY

Sample data were projected using the combined formulas for estimation of a population
mean and total for a stratified sample, as described in Chapter 5, and a two-stage
sample, as described in Chapter 9, of Elementary Survev Samoling. Scheaffer,
Mendenhall, and Ott, c.1996. For the total dollar value projections, we had book values
for the FY 2000 universe and were, therefore, able to calculate the projections by
including the Chapter 6 formulas for difference estimation from the same text.

RESULTS: 1984/87 Model Years (Universe =1,011 Trailers)

1984/87 Variable 1; Total Cost
Based on difference estimation projection of the sample results, we are 95 percent
confident the total cost of preventive maintenance and non-preventive maintenance
parts and labor is $1,557,177 to $1,813,498. The resulting projection of the combined
preventive maintenance and non-preventive maintenance cost is $1,685,338 (average
of $1,667 per trailer).

Comparing the bounds above to the universe cost shown in the database, we would
conclude that the database universe cost for the maintenance of the 1984/87 model
year trailers is understated.

1984/87 Allocation of Postal Service Form 4541, section on Order Invoice for Vehicle
Repair (PS Form 4541) section on Work Orders^ for preventive maintenance:
The projections for preventive maintenance parts and labor without PS Form 4541 costs
are used to allocate the costs and labor hours associated with preventive maintenance
costs in PS Form 4541 work orders. As a result, the PS Form 4541 preventive
maintenance values for trailers from the 1984/87 model years are allocated 32 percent
to parts and 68 percent to labor.

1984/87 Variable 2A: preventive maintenance and Allocated PS Form 4541, section on
Cost of Parts:
Based on direct projection of the sample results from the 1984/87 model years, we are
95 percent confident the total cost of the preventive maintenance and PS Form 4541
parts is $81,810 to $211,307. The resulting projection of the preventive maintenance
and PS Form 4541 parts cost (including allocated PS Form 4541 costs) is $146,559
(average of $145 per trailer).




 The PS Form 4541 worK orders are ones for which parts and labor are not separately identified; we allocated the PS
Form 4541 cost to preventive maintenance and non-preventive maintenance parts and labor in the proportion in
which they occurred for con-esponding costs not associated with PS Form 4541.
Trailer Lease Justification                                                 TD-AR-02-002




1984/87 Variable 28: preventive maintenance and Allocated PS Form 4541, section on
Cost of Labor:
Based on direct projection of the sample results from the 1984/87 model years, we are
95 percent confident the total cost of the preventive maintenance labor is $226,480 to
$402,189. The resulting projection of the preventive maintenance labor cost (including
allocated PS Form 4541 costs) is $314,334 (average of $311 per trailer).

1984/87 Variable 2C; preventive maintenance and Allocated PS Form 4541, section on
Labor Hours:
Based on direct projection of the sample results from the 1984/87 model years, we are
95 percent confident the total preventive maintenance and allocated preventive
maintenance labor hours are 7,124 to 12,651. The resulting projection of the preventive
maintenance labor hours (including allocated PS Form 4541 hours) is 9,888 (average
of 10 per trailer).

1984/87 Allocation of PS Form 4541, section on Work Orders for Non-preventive
Maintenance;
The projections for non-preventive maintenance parts and labor without PS Form 4541
costs are used to allocate the costs and labor hours associated with non-preventive
maintenance costs in PS Form 4541 work orders. As a result, the PS Form 4541 non-
preventive maintenance values for trailers from the 1984/87 model years are allocated
40 percent to parts and 60 percent to labor.

1984/87 Variable 2D: Non-preventive maintenance and Allocated PS Form 4541,
section on Cost of Parts;
Based on direct projection of the sample results from the 1984/87 model years, we are
95 percent confident the total cost of the non-preventive maintenance parts and
PS Form 4541 items is $321,507 to $566,236. The resulting projection of the non-
preventive maintenance parts cost (including allocated PS Form 4541 costs) is
$443,871 (average of $439 per trailer).

1984/87 Variable 2E: Non-preventive maintenance and Allocated PS Form 4541,
section on Cost of Labor:
Based on direct projection of the sample results from the 1984/87 model years, we are
95 percent confident the total cost of the non-preventive maintenance labor (including
allocated PS Form 4541 costs) is $523,759 to $790,807. The resulting projection of the
non-preventive maintenance cost (including allocated PS Form 4541 costs) is
$657,283 (average of $650 per trailer).

1984/87 Variable 2F: Non-preventive maintenance and Allocated PS Form 4541,
section on Labor Hours:
Based on direct projection of the sample results from the 1984/87 model years, we are
95 percent confident the total non-preventive maintenance and allocated non-preventive
maintenance labor hours are 16,476 to 24,876. The resulting projection of the non-
Trailer Lease Justification                                                      TD-AR-02-002



preventive maintenance labor hours (including allocated PS Form 4541 hours) is
20,676 (average of 20 per trailer).

RESULTS: 1991/92 Model Years (Universe = 1,019 Trailers)

1991/1992 Variable 1: Total Cost;
Based on difference estimation projection of the sample results, we are 95 percent
confident the total cost of preventive maintenance and non-preventive maintenance
parts and labor is $1,081,285 to $1,478,760. The resulting projection of the combined
preventive maintenance and non-preventive maintenance cost is $1,280,022 (average
of $1,256 per trailer).

Comparing the bounds above to the universe cost shown in the database, we would
conclude that the database universe cost for the maintenance of the 1991/92 model
year trailers is within the bounds of our projection; therefore, we cannot say that it is
understated or overstated.

1991/1992 Allocation of PS Form 4541, section on Work Orders for preventive
maintenance:
The projections for preventive maintenance parts and labor without PS Form 4541 costs
are used to allocate the costs and labor hours associated with preventive maintenance
costs in PS Form 4541 work orders. As a result, the PS Form 4541 preventive
maintenance values for trailers from the 1991/92 model years are allocated 38 percent
to parts and 62 percent to labor.

1991/1992 Variable 2A: preventive maintenance and Allocated PS Form 4541, section
on Cost of Parts:
Based on direct projection of the sample results from the 1991/92 model years, we are
95 percent confident the total cost of the preventive maintenance and PS Form 4541
parts is $83,664 to $217,024. The resulting projection of the preventive maintenance
and PS Form 4541 parts cost (including allocated PS Form 4541 costs) is $150,344
(average of $148 per trailer).

1991/1992 Variable 2B: preventive maintenance and Allocated PS Form 4541, section
on Cost of Labor;
Based on direct projection of the sample results from the 1991/92 model years, we are
95 percent confident the total cost of the preventive maintenance labor is $156,044 to
$345,767. The resulting projection of the preventive maintenance labor cost (including
allocated PS Form 4541 costs) is $250,906 (average of $246 per trailer).

1991/1992 Variable 2C; preventive maintenance and Allocated PS Form 4541, section
on Labor Hours:
Based on direct projection of the sample results from the 1991/92 model years, we are
95 percent confident the total preventive maintenance and allocated preventive
maintenance labor hours are 4,942 to 10,893. The resulting projection of the preventive
Trailer Lease Justification                                                TD-AR-02-002



maintenance labor hours (including allocated PS Form 4541 hours) is 7,918 (average
of 8 per trailer).

1991/1992 Allocation of PS Form 4541, section on Work Orders for Non-preventive
Maintenance:
The projections for non-preventive maintenance parts and labor without PS Form 4541
costs are used to allocate the costs and labor hours associated with non-preventive
maintenance costs in PS Form 4541 work orders. As a result, the PS Form 4541 non-
preventive maintenance values for trailers from the 1991/92 model years are allocated
41 percent to parts and 59 percent to labor.

1991/1992 Variable 2D; Non-preventive maintenance and Allocated PS Form, section
on 4541 Cost of Parts;
Based on direct projection of the sample results from the 1991/92 model years, we are
95 percent confident the total cost of the non-preventive maintenance parts and
PS Form 4541 items is $175,779 to $464,175. The resulting projection of the non-
preventive maintenance parts cost (including allocated PS Form 4541 costs) is
$319,977 (average of $314 per trailer).

1991/1992 Variable 2E; Non-preventive maintenance and Allocated PS Form 4541,
section on Cost of Labor;
Based on direct projection of the sample results from the 1991/92 model years, we are
95 percent confident the total cost of the non-preventive maintenance labor (including
allocated PS Form 4541 costs) is $252,430 to $663,271. The resulting projection of the
non-preventive maintenance cost (including allocated PS Form 4541 costs) is
$457,850 (average of $449 per trailer).

1991/1992 Variable 2F: Non-preventive maintenance and Allocated PS Form 4541,
section on Labor Hours;
Based on direct projection of the sample results from the 1991/92 model years, we are
95 percent confident the total non-preventive maintenance and allocated non-preventive
maintenance labor hours are 7.977 to 20,878. The resulting projection of the non-
preventive maintenance labor hours (including allocated PS Form 4541 hours) is
14,427 (average of 14 per trailer).

RESULTS; 1998 Model Year (Universe = 1,986 Trailers)

1998 Variable 1; Total Cost:
Based on difference estimation projection of the sample results, we are 95 percent
confident the total cost of preventive maintenance and non-preventive maintenance
parts and labor is $1.538,155 to $1,888,351. The resulting projection of the combined
preventive maintenance and non-preventive maintenance cost is $1,713,253 (average
of $863 per trailer).




                                          22
Trailer Lease Justiflcation                                                 TD-AR-02-002



Comparing the bounds above to the universe cost shown in the database, we would
conclude that the database universe cost for the maintenance of the 1998 model year
trailers is understated.

1998 Allocation of PS Form 4541, section on Work Orders for preventive maintenance:
The projections for preventive maintenance parts and labor without PS Form 4541 costs
are used to allocate the costs and labor hours associated with preventive maintenance
costs in PS Form 4541 work orders. As a result, the PS Form 4541 preventive
maintenance values for trailers from the 1998 model years are allocated 40 percent to
parts and 60 percent to labor.

1998 Variable 2A; preventive maintenance and Allocated PS Form 4541 section on
Cost of Parts;
Based on direct projection of the sample results from the 1998 model years, we are
95 percent confident the total cost of the preventive maintenance and PS Form 4541
parts is $86,618 to $533,717. The resulting projection of the preventive maintenance
and PS Form 4541 parts cost (including allocated PS Form 4541 costs) is $258,219
(average of $130 per trailer).

1998 Variable 2B: preventive maintenance and Allocated PS Form 4541, section on
Cost of Labor
Based on direct projection of the sample results from the 1998 model years, we are
95 percent confident the total cost of the preventive maintenance labor is $202,029 to
$569,981. The resulting projection of the preventive maintenance labor cost (including
allocated PS Form 4541 costs) is $386,145 (average of $194 per trailer).

1998 Variable 2C: preventive maintenance and Allocated PS Form 4541, section on
Labor Hours:
Based on direct projection of the sample results from the 1998 model years, we are
95 percent confident the total preventive maintenance and allocated preventive
maintenance labor hours are 6,355 to 17,658. The resulting projection of the preventive
maintenance labor hours (including allocated PS Form 4541 hours) is 12,147 (average
of 6 per trailer).

 1998 Allocation of PS Form 4541, section on Work Orders for non-preventive
 maintenance:
 The projections for non-preventive maintenance parts and labor without PS Form 4541
 costs are used to allocate the costs and labor hours associated with non-preventive
 maintenance costs in PS Form 4541 work orders. As a result, the PS Form 4541 non-
 preventive maintenance values for trailers from the 1998 model years are allocated
 44 percent to parts and 56 percent to labor.




                                           23
Trailer Lease Justification                                                TD-AR-02-002



1998 Variable 2D; Non-preventive maintenance and Allocated PS Form 4541, section
on Cost of Parts:
Based on direct projection of the sample results from the 1998 model years, we are
95 percent confident the total cost of the non-preventive maintenance parts and
PS Form 4541 items is $236,131 to $775,457. The resulting projection of the non-
preventive maintenance parts cost (including allocated PS Form 4541 costs) is
$505,934 (average of $255 per trailer).

1998 Variable 2E; Non-preventive maintenance and Allocated PS Form 4541, section
on Cost of Labor:
Based on direct projection of the sample results from the 1998 model years, we are
95 percent confident the total cost of the non-preventive maintenance labor (including
allocated PS Form 4541 costs) is $304,541 to $964,175. The resulting projection of the
non-preventive maintenance cost (including allocated PS Form 4541 costs) is
$634,498 (average of $319 per trailer).

1998 Variable 2F: Non-preventive maintenance and Allocated PS Form 4541, section
on Labor Hours:
Based on direct projection of the sample results from the 1998 model years, we are
95 percent confident the total non-preventive maintenance and allocated non-preventive
maintenance labor hours are 9,580 to 30,058. The resulting projection of the non-
preventive maintenance labor hours (including allocated PS Form 4541 hours) is
19,959 (average of 10 per trailer).
Trailer Lease Justification                                                                TD-AR-02-002



                                              APPENDIX C

                        12-YEAR ECONOMIC ANALYSIS OF
                      PURCHASED VERSUS LEASED TRAILERS

Savings Methodology
The 12-year cash flow of purchase and lease of equal number of trailers was compared
to calculate the cost savings under the scenario of purchase.

    1. Potential Savings~$85 million over 12 years

    2. Methodology

              a. Capital Investment
                 1997 model trailer cost was escalated using 1.7 percent rate to calculate
                 FY 2000 cost.

              b. Salvage Value-5 percent.

              c. Maintenance Cost - Contracting Out
                 i. Based on data collected from the sample sites for FY 2000
                    (Appendix B) (Average results for trailers from 3 model years).

                  ii. Labor rate; average of rate obtained from three sites.

                   Results per Trailer, from Appendix B                                 Cost for
  Category                                                                Contractor   Cash Flow
                  1984/87        1991/92           1998      Average
                                                                            Rate         Model
Preventive
                                                                             Not
Maintenance         $145          $148             $130        $141                     $141.00
                                                                          applicable
Parts
Preventive
Maintenance       10 hours       8 hours          6 hours     8 hours      $45.67       $365.36
Labor
Non-
preventive                                                                  Not
                    $439          $314             $255        $336                     $336.00
Maintenance                                                               Applicable
Parts
Non-
Preventive
                  20 hours       14 hours         10 hours   14.7 hours     $45.67      $669.83
Maintenance
Labor


 The above computations above were rounded off.
Trailer Lease Justification                                                       TD-AR-02-002




             d. Lease Cost

                 Daily Lease Rate Per Trailer: $10.21 (including preventive maintenance)
                 remains the same for 6 years (year 1 through 6). The lease is renewable
                 for 6 years. Hence the analysis was performed for a total of 12 years of
                 lease that matches with the 12-year life of purchased trailer. The
                 escalation rate of 1.7 percent was used for the cash flow analysis and
                 applied cumulatively at the beginning of the renewal period. Because the
                 lease includes preventive maintenance labor, the 1.7 percent escalation
                 rate is implied for the preventive maintenance labor also, a rate well below
                 the baseline labor escalation rate.

             e. Base Year Inputs to Cash Flow for 4.475 Trailers and 31 Converter
                Gears

                   i. Purchase;                                           $99,446,606
                      Preventive Maintenance for trailers - Parts;            630,975
                      Preventive Maintenance for trailers - Labor:          1,634,986
                      Non-preventive Maintenance for trailers - Parts;      1,503,600
                      Non-preventive Maintenance for trailers - Labor:      2.997.474

                       Total;                                            $106,213,641


                  ii. Lease including Preventive Maintenance:             $ 16,792,285
                      Non-preventive Maintenance for trailers - Parts:       1,503,600
                      Non-preventive Maintenance for trailers - Labor:       2.997.474

                       Total:                                             $21,293,359




                                                26
                                o     in
                                o     CO
                                                              eg
9                   to                o     CM
                    o <0              o'          CM CJ>      o
                    o    o            o     O
en                                          CM          m     en
                                      eg                      •    *   '

                                                              CM
o                               (A    CN

                                                                                             n
                                <o                      o>                  CM        1^     in
                                      oi                                              OO
                                                              CD
                    m           (N                      o>                  CO        co'
                                      o'                                                     oo'
                    o     lO
                                                  T-    CM'   T-
                                                                                      00
                    o           <D    CO
                                      CO_
                                            O           lO                            in
                                CD          CN          CM
                                                                            at        co'    u>
                                                        O)"
                                      CM                      CN                      CN     00
                                                              (4


                                      lO                o>        O         3
                                      T—                          CO
                                00    CM
                                                        CO                  (0
                                            O                     in        >
                                      CD"         O
                    O                                             CM"       d)
                    o ^               CM
                                      r^    o           CO
                                                                  CM
                    M                       (N          Oi                  (0
                                                                  in
                                      CM
                                                        eo'                 >
                                                                  TT"
                                                                  CM
                                                                            13
                                                                            (A
                                                                            O
                                                                            3
                                                                            C
               &                      CO                          in
               ra               s     ir>
                                      o
                                                        o         o
                                                                  CD        1
               E    o
                                o>
                                      h-"
                                            (71
                                            Q
                                                  a*    in"       ai        <n
          UJ   E    o t o oo"
                          o>
                                            O
                                                        CD
                                                                  CO
                                                                            o
                    CM                m     CM
                                                        CD
                                                                  CO
                                                                            u
                                      T-
               (0                                       co"
                                                                  • ^ '

                                                                  CM
          <                           CM
                                                                  (A        u                            o
          X    .2                                                           c
                                                                            (0
                                                                                                         o
                                                                                                         o
                                                                            c                            CN
                                                        o         CD        dl                                     a? 3?
          o    CQ               in    fM
                                      CO
                                                        CO
                                                                  in         c
                                                                                                         in
                                                                                                         CM
                                                                                                                   o o o
                                                                                                                   «0
               C                CO          00          CO
                    CM
                    o C4 a i          CN
                                            o <o                            'S                           X         CO             1^
                                                                                                                                  eg
               <    o                 CO
                                            o                     co"
          a.                          NT                CD                  E                            o
                         oi                 CM
                                                                            d>        4^

          (0   _o                     CM                          CO        _>        (A
                                                                                       0
                                                                                                         <
          >    u.                     (A                co'                 'iP
                                                                             c         u
                                                                                                         E              CO
                                                                             v         a>                UJ
          LU                                                      CM         >         u                 >         O H
               w                                                                       c                           ffl co
          LU   to                                                                      re                1-            O
          _l   O                5     to
                                      CO         O)
                                                                  o
                                                                            c
                                                                                       c
                                                                                       a>
                                                                                                         o
                                                                                                         Ul        3   O
                                CO
                                      co'   r»-                   eg                  *^                               ct.
          CC        o ^                     o h- in               en
                                                                            0
                                                                                       c                 u.        (0 UJ
          UJ   (0   o           CM
                                      (31   o    in                         c                            u.        Q. X CO
                                      CM                                              'i5                          (0 1 - 1 -
          _l                    CD'         CM
                                                                  co'       •a                           UJ
               >-               O                                            c         E                                  (0
                                                        CD"       eg                               d)
                                                                            fl)        0)           u              z o    O
                                                                                                                          O
               CM                                                           4)
                                                                             >        _>            c
                                                                                                    re   o         o  -1
                                                                            'iP       4->               -1     z_     _ J ££
                                                                             C    —    C            c — U .                  UJ
                           u                                                 d)        4)           a>         Of       <    X
                           ro                      ra                                  >
                                                                                                   *^   X               (0 1 -
                    n a>                     n                                                      c   CO (A      o

                          i
                                                   V                         d)
                    «                                                                  a1                <              t-
                                                                                                                  <o
                                                                                                   *re      I£
                    >-                      >     >-                         a         c            E    u  O CQ
                                                                                                            H     a. __ ll
                     u                       u 4)
                                                  u                                    0
                                                                                       c      (A
                                                                                                    V
                                                                                                         z  O  3  UJ <
                                                                                                         Q < m u h-
                     M                       <n                             "a             o    _>
                                            iZ 'o*                           d)
                                                                                       (fl
                                                                                           o             UJ u. O z (0
                    iT    a.                                                           3 —
                                                                                           v  —  c
                                                                                                         (/> z z < O
                                                                            .y
                                                                                                             o < zUJ o
                                            (A                                         a
                    lij                     m            0)                                (A    >
                                 0)                                          a
    c                                                                                                    CO H z H UJ
                    >                       >            (A                            (fl    re    Oi
    o                                  0)                (0            0)                     a>
                                 CD
                                       (0                                    %        o             Q.
                                                                                                               UJ
                                                                                                         o 3 1z - Z< <
                    1-                                                 (0                    -1     (A                (0
    fl              <                  CQ
                                            <                                (A       o       (A    d>
    o                            y    0)                 y             0)
                    z                 _J    Z                                CO        d)     (A   •D        <        UJ
    •ft
                                Q.          Q:          Q.
                                                                            £          <A
                                                                                       CO    U
                                                                                                    O
                                                                                                         o o<         -I
                    LU                      UJ                               3         d>    M                CO
    3               1-                                                      D.        - J    UJ     c    <    UJ
->                                          _J                              ^         CM
                                                                                                         U.
    V               <           -      CM   <           -          CN                              •«

    w
    eg
    v
Trailer Lease Justification                                                      TD-AR-02-002



                               APPENDIX D
                     MANAGEMENT'S SUBSEQUENT ANALYSIS


                                                    I   K
                                       I   I I
                                       3   3   4


                                       3   S



                    .. f ! i
                    . 1 ii
                    . 1

                      3   *   H




                          \i
                          \i
                                                                 l!
                              S                                       ill

                                                            5*
              Id                                                             f
                                                                 lill 1I1!
                                                                 2<




              ii5
                              est!   1 Ii 11 i ll           J! n I lii

                                                   28
Trailer Lease Justification                                                                                                  TD-AR-02-002



                        APPENDIX E. MANAGEMENT'S COMMENTS
I     '                                                                                                                                *

                 MATIOMAL M A I L TwrcPOHiM.ON PunciwaKG


                 UfJITED STATES
                 POSTAL SERVICE


                January 7. 2002



                RONALD K. STITH

                                                      fS
                THRU: KEITH STRANGE L i / j j ^
                SUBJECT: Nalional Trailer Lease Jusllficalion (Report Number TR-AR-02-DRAFT)


                This is In response lo the Inspector General's draft audit (Report Nurrber TR-AR-02 DRAFT}.
                AlthoJC|h thare have been numerous exchanges of data and meetings to work through issues, and
                opportunities for Improvement have been identified, resolution on all issues has not been altainod. A
                full response to the audit findings is attached; however, the mosi significant objeclicxis to the findings
                are listed below.

                Upon review of the draft audit report, supporting data, and business assumptions, the foundetion for the
                audit findings Is Inconsistent with the National Trailer Service contract's terms end conditions and
                experience with trailer sen/lce contracts. Using estimates from the draft audit report, actual payment
                data, and proven postal business practices, over the 6-year term of the contract, the net benefit of the
                service contract is $48.7 million (NPV) when compared to ownership, it the contract Is renewed Tor an
                additlonel 6-year term, the NPV over the 12-year period Is approximately $21 million. TTiese
                comparisons do not take into full conslderatfon the Infraslnjcture increases reciulred to maintain this fleet
                expansion had purchasing been pursued. We do not agree with the report's finding that the Postal
                Service could save S85 million over 12 years by purchasing trailers versus leasing.

                The audit indicates that a decision analysis report (DAR) should have been prepared and Board of
                Governors' approval should have been obtained based on an assumption that this agreement is a
                capital lease. This contract, consistent with the Purchasing Manual, the Investment Policies and
                Procedures (F-66 HandbooK), and the Board of Governors' bylaws, was determined to be a service
                contract for recurring services, not a capital lease, and. therefore, a OAR and Board approval was not
                required.

                It Is clear that the major differences around our views on Ihe service contract versus purchase lie in
                the assumptions used lo project costs over the 6-ye3r term of the contract and the potential 12-year
                term it the option to extend Is exercised. The consolidated national contract will provide clear cost
                data. We intend to use that data to perform another analysis before any decision is made to exercise
                the option to extend the trailer contract. We wcxjid welcome OIG review of that analysis prior to an
                extension.

                Thank you again for your continued efforts in reviewing this contract and trying to resolve the
                differences in our views.


                            SY^
             r^D^ ght \ ^ u n g
             Jl>/KianaMr /



                  JT6 I ? i » v ( i P-..v7t Hv ^600
                  V I V :.aK»t DC JO.XiG M 1 0


                  Fl. <?o?j j c a . i i r j




                                                                  29
Trailer Lease Justification          TD-AR-02-002




             cc: Mr. Strasser
                 Mr. Strange
                 Mr. Vogel
                 Mr. Pajunas
                 Mr. Gunnels
                 Ms. Weir




                                30
Trailer Lease Justification                                                                                                    TD-AR-02-002




                                                       Background Info/matinn


             The draft audit report places a great deal of emphasis on Ihe lease versus buy issue. However, Ihe
             purpose of the trailer contract was to replace a number of smaller trailer service contrac^ts that were
             negotiated locally in the Area offices. Simply put. a number of smaller (local) trailer service requirements
             were consolidated lo achieve purchasing leverage. The bottom ima is that these trailers had been in
             service for years as a local trailer service requirement at an average rate of $11.57 per trailer, per day.
             The Area offices are now able to use newer trailers el a rate of S10.21 per trailer, per day. That, along
             Yji[t\ other features of the new trailer service contract, results In a hard saving of $13,420,666 during the
             Six-year term of the service contract. If the Postal Service reaches agreement for the renewal for an
             additional slK-year term, the total projected savings will reach $27,526,190. The contracts are now being
             managed by the local Distribution Networks offices as a trailer service agreement with a 30-day walk away
             clause, as has been the business practice for many years. The responses below will further sliow that all
             Ihe business goals (both financial and service) of this purchasing activity were accomplished. The
             following is a point-by-point discussion of each of the goals of the program.

             Trailer Service fShort/Long-Term Benefits):

             The Postal Service made a decision lo consolidate a series of small trailer service contracts into the
             national trailer service contract in order to accomplish Ihe following business goals, as were outlined In Ihe
             Memorandum and Recommendation for Award (MRA) for the national trailer services contract:

             Trailer Quality:

             The average age of a trailer (excluding New York trailers) prior to Ihe implementation of the current
             national trailer service contract was five years. The average age of trailers under the contract is three
             years. The newer equipment represents a value to the Postal Service that will produce Improved
             performance reliability and less downtime. The newer trailers ^ 1 also have a positive Impact on the
             Postal Service's Image In the communities that we serve. The trailers also have consistent material
             handling specifications throughout the fleet. This will have a positive Impact on safety.

             Traijer Leasing Costs:

             A key goal to this program is to reduce both the total and unit cost of trailers under the service conlrad.
             Based on the hard data on the trailers that have been placed In semlce, the average unit cost has been
             reduced from Si 1.57 per trailer, per day to $10.21 per trailer, per day. For each year in operelion, this will
             result In annual savings of $2,236,778 on the base flaet. Based on the six-year temi of the contract, this
             change will result in total savings of $13,420,668.

             Trailer Cost f HCR Contractors):

             The national trailer service contract has a provision that will permit postal HCR contractors to use ad hoc
             trailers when needed, lo support postal operations. This will result in reduced pass-through costs lo the
             Postal Service. Although we are sliil wording some contractual Issues, we are planning for the HCR
             suppliers to get the contract rale of $10.21 per trailer, per day.

             Trpjlgr l,gaslnfl CfOSt (Peak-Season):

             Hislorically. each Area has contracted with various trailer suppliers to meet their peak season
             requiremenls. There will be savings of $348,000 each year for peak season rentals.

             The goals outlined above were discussed in Ihe MRA. Based on our analysis, each of the goals of this
             purchase has been, or is well on its way to being, met.




                                                                   -1-




                                                                    31
Trailer Lease Justification                                                                                                  TD-AR-02-002




                                                           AUDIT FINDINGS

             Trailer Lease Not Cost Effective

             OIQ Finding:

             Postal Service ofTiclats made a decision to lease common fleet trailers based upon a business justification
             process that incorrectly reported that it was more advantageous lo lease rather than purchase trailers.

             Response:

             The MRA does not recommend that the Postal Service lease rather than buy trailers based on an incon-ect
             analysis of lease versus buy. The MRA stales. In pertinent part, the following:

                     ' A straight comparison of trailer ownership costs versus service costs would give a slight
                     financial advantage to ownership," The same section of the report goes on to state that:
                     *Whan you consider the total cost of ownership, ^ e nod must go to leasing as the best
                     service and financial option for the Postal Service.' The MRA concludes by stating that In
                     order tor the Postal Service to meet its mission, there must be a proper balance between
                      postal-controlled (owned) equipment and contracted equipment. The cost differences
                      between crwned and outsourced equipment should not affect the cunent proposed trailer
                      service contract or proposed purchase of 1.000 trailers to replace aging trailers in the
                      existing fleet. The recommendellon dearly states that Postal Service needs both owned
                      and outsourced equipment.

             The decision to award the national trailer service contract was based on the overall business case and
             never claimed that on a head-to-head, narrowly focused comparison, that leasing was less costly than
             ownership, as Is stated in the audit report referenced above. Given the Postal Service's overall business
             strategy and operating model of contracting out transportation and related services (the use of HCR In lieu
             of postal owned and operated equipment and personnel), it Is less expensive in this case to use
             outsourced trailers (given the total cost of ownership). The following are soma of the speciHc business
             reasons that leasing is the best business decision For the Postal Service in this casa:

                     1.   The management, administrative, and physical Infrastructure to manage a postal-
                          owned float of trailers (9,452 trailers BMC/MTESC fleets) Is not in the Postal Service's
                          current staffing model. Trailer ownership would require significant additional
                          infrastructure and staffing;
                     2.   Short-term trailer replacement;
                     3.   Additional trailer flexibility (fleet sizing);
                     4.   Trailer downtime contingencies would become a postal responsibility;
                     5.   Save corporate value of initial dollar investment in the purchase of trailers;
                     6.   Tort claims/insurance costs;
                     7.   Use of aging trailers in years 6 through 12 of ownership; and
                     6.   High damage repair of reinlorced fiberglass trailers.

             In summary, the decision to use a nalional service contract, which provides for leasing, is not strictly
             financial, as portrayed in the transmittal draft audit report, but an overall business decision. In fact, (he
             M F ^ recommended that the Postal Service should continue to both purchase and use service
             agreements lo acquire trailers, depending on the circumstances

             OtG Finding:

             Thai decision will cost the Postal Service en additional Sfi5 million over a 12-year period.




                                                                    -2-




                                                                    32
Trailer Lease Justification                                                                                                  TD-AR-02-002




             Response:

             The Postal Service has a 6-year service contract with the nattonal trailer supplier and not a t2-year
             contract, as stated in the audit report. Based on our analysis, the NPV of leasing versus purchase for a 6-
             year term Is $48,741,825.

             If Ihe parlies agree on the terms and conditions, the contract can be renewed. If we are unable lo achieve
             a price reducUon for years 7 through 12 (which we fully expect to achieve) the 12-year lease still has a
             positive NPV for leasing of over $16 million (this issue is discussed later In document). As stated In (he
             MRA, (here is a slight financial advantage to ownership versus teasing if none of the other total cnvnership
             costs are taken Into consideration.

             Based on our review of the data and reference material used to support the repon's Hnancial projections
             for the cost of serviced equipment, the OIG report relies on a series of assumptions and data that is not
             verified, Is Inconsistent with the terms and conditions of the national service contract, and is inconsistent
             with postal financial experience with trailer service contracts. The combination of these factors has
             created flaws In the financial conclusions in Ihe audit report. Folkiwlng Is a discussion of some of the
             areas In which we think the report's conclusions are incorrect.

             Economic Price Escalation:

             Based on our review of the report and earlier conversations with the OIG, the OIG has assumed that the
             daily service cost will remain flat for the first six years of the service and then Increase by 10.4% for years
             seven through twelve. That woukJ mean (het the daily service cost would rise from $10.21 per trailer, per
             day to $11.27 per trailer, per day. The total Impact of this assumption raises the total cost of serviced
             trailers by $10,492,816 for the final six years of any contract renewal. This assumption is incorrect based
             on the terms of the contract and all of our experience in negotiating traDer service contract renewals. The
             national trailer service contract slates that there will be no adjustment In the service rate oxcepl by mutual
             agreement of the parties (Clause H.7, lines 1066-1067). There are no plans to agree to an adjustment in
             the price during the initlet term or any subsequent renewal periods. In fact, the plan is to reduce the rate
             for any subsequent contractual term.

              The MRA cieeny states the plan lo achieve a cost reduction In the trailer service rate for any renewal of
              the contract. Tlie Postal Service has achieved a reduction in the daily rate or the rate has remained
              unchanged for trailer service contract renewals for the same equipment. Generally, reductions range
              between -3% and -9%. There are a total of 37 trailer service renewals, in 23, or 62% of the renewal
              actions, the rates remained unchanged, in 11, or 30% of the cases, the rates were reduced belvraen -3%
              and -9%. The only Instances where rates were Increased were those instances where we had the supplier
              make some substantive changes in the equipment. Therefore, Ihe OIG assumption that the contract rate
              will increase Is unfounded. Given the size of the contract and the supplier's ability to leverage, we expect
              to achieve a 14% reduction In the daily rate per trailer for years 7 through 12 of any service renewal. For
              this response, we have chosen to use 7% as a fair and reasonable estimate of potential savings based on
              past results. During the competitive bid process, there were offerors who bid in the range of $9.00 per
              day, per trailer. These companies are smaller than the awardee and, therefore, they do not have the
              customer base over which to spread Institutional and overhead cost. They also do not have the awardee's
              volume purchasing power. This will reduce the total trailer cost (for the years 7 through 12) below the
              current projected total contract price. If acceptable financial targets are unable to be achieved, the
              requirement will be re-competed. The trailer requirements will not change; therefore, based on previous
              performance, the cost will be reduced as outlined in the attachment, either through negotiations with Ihe
              cun'ent supplier or through the competitive process. The MRA dearly stales we plan to achieve a
              reduction In the dally rate. Given our experiences and plans, we cannot agree with the OlG's conclusion
              that rates will increase by 10.4%.

              Based on our years of experience In leasing trailers. In 92% of Ihe contracts reviewed, the lease price
              either remains constant or is reduced. A 10.4% increase for a service trailer contract Is unprecedented in




                                                                   -3-




                                                                   33
Trailer Lease Justification                                                                                                    TD-AR-02-002




             our business experience and, therefore, we cannot accept Ihe view that the contract price wll increase by
             10.4% for years 7 through 12 should we renew with TIP.

             Prolected Cost gf Damage Claims:

             Based on our review of the information outlined In the report and additional discussions wilh the OlG's
             office, Ihe OIG had discussions with various Vehicle Maintenance Facility (VMF) managers and reviewed
             trailer repair reports for postal-owned and operated equipment (PS Form 4547), as well as the awarded
             supplier's trailer repair standartts (preventative mslnlenance end non-preventative maintenance). Based
             on this review process, (he OIG determined that the Postal Service would pay $64,000,000 for damage lo
             postal-owned and operated equipment over a 12-yaar period. Using Ihe 4.506 trailer fleet at a total cost of
             $64,000,000 for a 12-yeBr operating period would indicate a cost of S3.24 per trailer, per day for damages
             lo postal-owned end operated equipment. The audit report then applies the results of the analysis of
             postal-owned and operated equipment lo the base cost of sen/iced trailers. The assumption that serviced
             trailers would have the same level of damage cost as postal-owned and operated equipment is Inconect
             and inconsistent with past and current experiences.

             The assumption is Incorrect for two key reasons. The first reason that damage cost for serviced
             equipment Is less than postal-owned and operated equipment is due to the tact that all maintenance and
             damage repairs are the direct responsibility of the contractor and nol the Postal Service (see contract
             Clause M.2). This contract requirement positions the contracting officer and b'ansportalion operations
             management to evaluate Ihe daim and accept it as postal damage (tor which the Postal Service Is
             financially liable), operating contractor damage, or fair wear and lear (for which the Postal Service is not
             liable). The second reason Is that the actual payments for damages for serviced IrailarB, In the worst year
             (FY 2001), averages $0.82 per trailer, per day. If we restricted the damage cost comparison to {ust the
             BMC fleet, which would be reasonable given ttw fact that Ihe BMC fleet is being replaced, Ihe damage
             cost per trailer, per day would be less than £0.57 per day. At $0.82 (the worst year) the cost is more than
             400% below the OIG cost estimate for postal-owned and operaled equipment. These recent documented
             payment experiences (four years of payments FY 1998-2001 through AP 12) are the best Indicator of
             future cost.

             As mentioned in our discussions with the OIG and referenced In the report, the trailer service supplier has
             first-line responsibility for all malntenBnc:e and trailer repairs. This means that this supplier must have the
             trailers irtspected, and In those instances where the supplier thinks that the repair was necessitated by
             negligent act(&) or omissions of the Postal Service or its agent, the supplier has Ihe option of Tiling a
             request for reimbursement.

             In some Instances, they accept the cost of repairs as fair wear and tear—in other Instances they hie a
             request for reimbursement. In those instances where a request for reimbursement for damages is filed,
             the request is evaluated and either paid in whole, In part, or rejected.

             Based on past postal experience over the years, the supplier evaluates some damage as fair wear and
             tear end never files a dalm. When we own the equipment, we must pay for every repair. In the casa of
             owned equipment, there Is no review of the repair; therefore, there Is no discussion or dispute of
             responsibility for the damage or maintenance cost. The Postal Service, as it does today with owned
             equipment, would simply pay for Ihe repair. The Postal Service's physical and staffing infrastructure has
             been designed to operate in this manner. In other Instances, claims are rejected, either In whole or part.
             This, once again, reduces the bottom line cost of trailers under service contracts. Finally, in some
             Instances, Ihe suppliers filed appeals with the Postal Service Board of Contract Appeals (PSBCA). Dating
             back to 1980, the Postal Servico has prevailed in the vast majority (seven out of eight) of these claims, (t
             is trom a combination of the day-lo-day management differences that the damage claims for service
             centred trailers ere substantially less than postal-owned equipment,

             Addrllonally, the NMTP group Is creating a function, which has as one of the responsibilities of Ihe
             manager, the requirement to address opportunities to more effectively manage the cost of assets. Given




                                                                    34
Trailer Lease Justification                                                                                                  TD-AR-02-002




             these plans, it Is expected that the total cost of trailers, including damage, will be reduced in the coming
             mcxiths and years.

             Although we have nol quantified the economic value, most poslal-owned trailers are made of a fiberglass
             material and are, ^erefore, more expensive to repair than the material used lo manufacture the serviced
             trailer fleet.

             Total Cost of Ownership:

             A key cost that is nol included In the audit report nor quantified in the MRA is the staffing required to
             manage an owned fleet. If we take the most conservative approach and add one employee at each major
             facility where we would have a trailer Teet (21 sites), it would cost a minimum of $1,387,713.60 per year
             and $16,652,563.20 over a 12-year period. This employee would be required lo follow up on local contract
             management issues such as fleet reviews, trailer reviews, trailer tracking, adjudication of trailer damages,
             and maintenance claims, etc.

             OIG Recommendiitlqri 1:

             Prepare a Decision Analysis Repori to purchase the common fleet trailers currently under the nationwide
             lease and submit It to the Board of Governors.

             Response:

             Based on our review of Ihe audit report, we do not agree with this recommendation. As stated earlier, the
             statement that a DAR is required for the subject service is inconsistent with postal policy as tl relates to
             transportation contracts. As you will note In section 4.5.1.a of the PurchasrrigMsnt/a/. trailer contracts are,
             by definition, transportation contracts. The fact that many of these contracts have a total value in excess
             of $10 million does not mean that a DAR and/or Board of Governors approval is required. The Postal
             Service has a continual need for both serviced and owned trailers.

             010 Recommendation 2:

             Upon approval to purchase trailers. Initiate action to purchase trailers and terminate the national lease.

             Response:

             As discussed in this document, we do nol agree with this recommendation. Given Ihe Postal Service's
             current operating model, it would nol be in Ihe best senlce or financial Interest of the Festal Sen/ice to
             implement this recommendation. The consolidation of Ihe fragmented Area teases into a national service
             contract was a positive step v/tth financial banefils lo the Postal Service. We believe the appropriate
             course is to leave the contract In place, collect dertnitlva cost data, and do another lease versus purchase
             assessment prior lo exercise of the option to exterKl the contract.

             OIG Recommendation 3:

             Obtain bids for nationwide maintenance and repair sen/leas for common fleet trailers.

             Response:

             The repair and maintenance requlrements-for serviced trallers-ara part of the current service contracts
             and, therefore, are already contracted out. Tlia possibility of the Postal Service completely contracting out
             maintenance and repairs for owned equipment raises a myriad of employee management financial Issues
             (Article 32) that make Ihe Implementation highly problematic. The management, administrative, end
             physlc^al infrastructure to manage a poslal-owned Heel of trailers (9,452 trailers) is not in tfie Postal
             Service's current staffing model. Trailer ownership would require significant additional infrastructure
             equipment and staffing.



                                                                   -5-




                                                                    35
Trailer Lease Justification                                                                                                      TD-AR-02-002




             OIG Recommendation 4:

             Develop management controls to ensure use of a Decision Analysis Report tor services exceeding $10
             million per year.

             Response:

             The statement that a Decision Analysis Repori (DAR) is required for the subject service Is inconsistent
             with postal policy as it relates to transportation contracts. As you will note In section 4.5.1 .a of the
             Purchasing Manual, trailer contracts are, by definition, transportation contracts. The fact that many of
             these contracts have a total value in excess of $10 million does not mean that a DAR and/or Bciard of
             Governors (BOG) approval Is required. Section 2-6.1 of the F-66 states the following:

                     'Supplies and services include expensed repairs and alterations and the renewal of
                     ongoing or recurring service contracts. Throughout all levels of the organization, authority
                     is granted lo approve purchases of expense items contained in approved budget.
                     Managers listed in the Delegations of Approval Authority may redelegete. In writing,
                     portions of this authority.'

             The Delegations of Approval Authority (F-66, exhibit 2-1) slates for Supplies and Services that '...Unless
             othenvlse covered by these instructions, authority is granted to approve projects contained in approved
             budget. ContrecUng/purchase subject to Purchasing (ASM) policies.,.'

             Since the trailer contract was a renewal of the existing ongoing or recurring supplies/services contracts.
             Board approval was not required. As discussed in the MRA, the national trailer service contract will
             provide substantial savings and service Improvements over the life of the conlrad.

             The subject service Is a continuallon of an existing service (transportation) contrad and, as such, does not
             require a OAR or Board approval (Ref. Delegationsof Approval Authority Exh. 2-1, F-66 General
             Investment Policies and Procedures). As outlined earlier in this document, there ere nun^erous total cost
             of ownership Issues that make trailer leasing an excellent business option for the Postal Service, as in this
             Instance. Although they are difflcurt to fully quantify, the business logic supporting these conclusions Is
             crystal clear.

             OIQ Recommendation 5:

             Ensure leases that meet the characteristics of a capital lease are accounted for as the acquisition of an
             asset and Incurrence of a liability on Postal Service accounting records.

             Responee:

             As stated earlier in this document, the national trailer service contrad does nol meet the Investment
             criteria for a capital lease. As stated in the MRA, the l^stal Service makes no u(>-front cash investment.
             In fact, the supplier invests a minimum of $50-^ million in equipment, and ihe Postal Sen/lce makes an
             accounting period payment only after using the equipment for 28 days. Therefore, there is zero capital
             investment and risk, and the national trailer service contract Is nol a capital lease. The Postal Service
             does not take tltie to a specific set of traiiers. The supplier maintains a fleet of trailers as a service to the
             Postal Service for a flat fee. The supplier can change trailers, as he/she deems appropriate, as long as
             the requirements of Ihe service contract are met

             As we normally measure business risk, we focus on capital investment, day-lo-day operating
             refiponslblllty, expense, and exist to exit the contract. We also look to Ihe standard postal criteria for
             determining whether an equipment service is a capital service as follows:




                                                                    -6-




                                                                    36
Trailer Lease Justification                                                                                                      TD-AR-02-002




             Capital Investment:

             The national trailer service contrad does not meet the investmeni criteria for a capital lease. As stated In
             Ihe MRA, the Postal Service makes no up-front cash investment. In fact, the supplier invests a minimum
             of $50+ million in equipment, and the Postal Service makes an accounting period payment only after using
             the equipment for 26 days. Therefore, there is zero capital investment and risk, and the national trailer
             service contract is not a capital lease.

             Dav-to-Day Operpllons:

             The second area of risk would be fcx the day-to-day fleet management and the cost of those operations.
             The supplier has total responsibility for day-to-day management of the fleet. The supplier must ensure
             that all preventive and non-preventivo maintenance (damage repairs) is completed. It is only after
             damage repairs have been completed and the supplier files a daim that the Postal Service evaluates the
             claim to determine IF it should be paid. If a trailer is out of service (for maintenance or damage), the
             supplier has tour hours to provide replacement equipment or be subjected to equipment replacement
             costs. The supplier bears responsibility for both the fleet management and finenclal risks of day-lo-day
             management. Given the fact that the supplier bears the risk, this contract does meet the definition of a
             capital lease.

             Contract Termination/Eauipment Disposal:

             The third area of risk is the cost of contrad termination or equipment disposal. Based on contract clause
             H.3., Termination, the Postal Service can terminate the contract with 30 days notice with a minimal
             liquidation payment. The six-year contract term Is worth $100,753,709. We can terminate with 30 days
             notice during the first three years of the contract and pay $2,798,770 (2.78% of contrad value) or
             terminate during the last three years of the contract and pay Si ,399,368 (1.39% of contract value). The
             question now becomes—who has the risk? This Issue is discussed in the MRA. Cleariy, the rinancial risk
             rests with the supplier and nol the Postal Sen/ice,

             In addition to the business criteria outlined above, an examlnalkin of this contract under the Generally
             Accepted Accounting Principles (GAAP) criteria for distinguishing a capital lease from an operating lease.
             (The GAAP critehe have been adopted as the Postal Sennca's standard criteria for lease capitalization in
             order to ensure that our flnanciel statements are prepared in compliance with GAAP.) The contract
             between TIP and USPS is cleariy not a capital lease, as it does not meot any of the following GAAP
             criteria:

             A capital lease exists If the lease meets any of the following tour criteria:

              1. The "Transfer of Ownership Test." The lessee is to gel property ownership at the end of the lease
                 term. This criterion is still satisfied if ovimership is transferred shortly after Ihe end of the lease term.

              2. The "Bargah Purchase Option Test.' A tiargain purchase option exists in which the lessee can either
                 buy the property at a minimal amount or renew the lease at very low rental payments relative lo the
                 "going rates."

              3. The 'Economic Life Test." The lease term Is 75% or more of the life of the property.

              4. The 'Recovery of Investment Test.' The present value of minimum lease payments at the start of the
                 lease equals or exceeds 90% of the fair maritet value of the property. Minimum lease payments do not
                 include executory costs to be paid by the lessor, which are being reimbursed by the lessee. Examples
                 of such costs are property taxes, Insurence, and maintenance. Executory costs also Include lessee
                 payments to an unrelated third party to guarantee the residual value. When the lessor pays executory
                 costs, any lessor's proflt on such costs is construed Ihe same as the executory costs.




                                                                      -7-




                                                                      37
Trailer Lease Justification                                                                                                TD-AR-02-002




            In summary, as measured by reasonable business standards, as welt as under GenarsUy Accepted
            Accounting Principles, Ihe national trailer service contrad is rwt a capital lease and did not, for this and
            other reasons discussed earlier, require a OAR and/or BOG review and approval.

            Conclusion;

            When you take Into consideration the combined effects of the differences In damage costs and
            preventative maintenance, as well as the lime value of money and projected mfraslrudure costs, It Is
            dearly in the Postal Sen/k:e's best interest to Eervk:e lease trailers versus buying, The savings are even
            greater when ad hoc rental and Christmas savings are factored Into the equation. Without a doubt, the
            adions taken with this contractual action were the best business decision for the Postal Service




                                                                   -a-




                                                                   38
Trailer Lease Justification                              TD-AR-02-002




       PAGES 3 9 - 5 3 OF THE O R I G I N A L REPORT WITHHELD
                   UNDER 39 u s e 4 1 0 ( c ) ( 2 ) b ( 3 )




                                 39
